                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: 110110055                                                                     Page 1 of 1



         We received an allegation generated from a proactive review l claiming a companllacked
         adequate research facilities and performed the award 3 work out of the PI4 and Co-pI's5
         residences. Additionally, the company failed to submit a final report evidencing completion of
         award work. 6 Our investigation revealed that NSF funds were spent appropriately, that the
         research facilities were adequate and that work was performed.

         No further investigation is necessary, accordingly this case is closed.




NSF ora Fonn 2 (11102)
